STATUS OF THE FEDERAL BUREAU OF
INVESTIGATION’S IMPLEMENTATION
    OF THE SENTINEL PROJECT

        U.S. Department of Justice
      Office of the Inspector General


              Report 12-08
             December 2011
Introduction

      This report is the eighth in the series of reviews that the Department
of Justice Office of the Inspector General (OIG) has conducted to examine
the Federal Bureau of Investigation’s (FBI) progress toward developing and
implementing Sentinel, its new information and investigative case
management system.

      According to the FBI’s original plan, established in March 2006,
Sentinel was to be developed in four phases at an estimated total cost of
$425 million and with an estimated completion date of December 2009. As
we previously reported, as a result of lessons learned during the
development of the first of the four phases, in 2008 the FBI and Lockheed
Martin re-planned the remaining three phases of Sentinel. As a part of this
replanning, the FBI increased the estimated total cost of Sentinel by
$26 million to $451 million and extended the projected completion date to
June 2010. In 2009 the FBI again extended the project’s estimated
completion date to September 2010.

      In our last report on Sentinel, issued in October 2010, we expressed
our concerns that the implementation of Sentinel had been delayed and was
over budget. We found that while the deployment of Sentinel’s Phase 2 in
July 2010 had resulted in some improvements to the FBI’s case
management system, it had not delivered much of what it originally
intended. 1 We noted that the Sentinel project was at a crossroads. The FBI
issued a stop-work order to Lockheed Martin in July 2010, and in
September 2010 the FBI announced its plans to complete the remaining two
phases of Sentinel using a new Agile methodology development strategy. 2
With the Agile approach the FBI intended to assume direct management of
the development of Sentinel and to greatly reduce Lockheed Martin’s role.

      The FBI stated through its new Agile approach it would complete the
remainder of Sentinel’s development by September 2011 and at a cost of
approximately $32.6 million, which would keep the total project costs within
the revised $451 million Sentinel budget. We observed in our last report,

       1
         U.S. Department of Justice Office of the Inspector General (OIG), Status of the
Federal Bureau of Investigation’s Implementation of the Sentinel Project, Report 11-01
(October 2010).
       2
          The Agile approach to software development focuses on the frequent delivery of
capabilities through the close collaboration of users, developers, and testers. The Agile
development approach seeks to deliver value to users quickly even in an environment
where the requirements and technology are frequently changing. We describe the Agile
development methodology adopted by the FBI in the following section of this report.



                                           -1-
based on Sentinel’s progress and spending at the time, as well as other cost
estimates, that delivering Sentinel as originally planned likely would cost
much more than $451 million and would take longer than a year to
complete.

       In this report, we examine the current status of the Sentinel project
using the Agile development approach to complete the project. 3 When we
submitted our draft report to the FBI in November for its review, we
reported the completion target that FBI officials were stating at that time:
that Sentinel would be deployed in January 2012. However, in
December 2011, the FBI’s Chief Technology Officer (CTO) stated that
Sentinel’s planned deployment had been delayed until May 2012. Because
of problems encountered during an FBI-wide test exercise of Sentinel in
October 2011, the CTO also stated that the schedule for completing
Sentinel’s development had been extended from December 2011 to February
2012. As a result of the exercise, which included 743 participants, the FBI
identified deficiencies with Sentinel’s performance. According to the FBI’s
Chief Information Officer (CIO), the problems were the result of insufficient
hardware capacity and the FBI determined that it will have to purchase new
hardware before Sentinel can operate properly when it ultimately is deployed
to all Sentinel users. At the time of this report, the FBI was still determining
the cost of the new hardware and the cost associated with the additional
delay to Sentinel’s development and deployment.

      Because of the uncertainties associated with the hardware
procurement and the cost associated with the additional delay to Sentinel’s
development and deployment, we remain concerned about the FBI’s abilities
to remain within its budget, even when including the use of Sentinel’s
operations and maintenance funds for the development and deployment of
Sentinel. We also continue to believe it will be challenging for the FBI to
meet this latest goal for deploying Sentinel to all FBI users in this timeframe.




      3
         The FBI’s original Agile development schedule planned for Sentinel development to
be completed in September 2011. As we discuss in this report, the FBI has extended this
schedule and now estimates that it will deploy a fully functional Sentinel system in May
2012. This interim report, part of our ongoing audit, provides an update on the FBI’s
progress in using an Agile development methodology for completing Sentinel.


                                          -2-
OIG Results in Brief

      Since October 2010, the FBI has changed its approach to completing
the development of Sentinel from a traditional phased and linear approach,
known as a waterfall approach, to an Agile development methodology. 4 As
part of this transition, the FBI reduced the number of Lockheed Martin
personnel working on the project from about 135 to approximately
10 employees.

       As of August 2011, the FBI was expending significantly fewer dollars
per month than it had in Phases 1 and 2 of the project when Lockheed
Martin was primarily responsible for the development of Sentinel. By
adopting an Agile development approach, the FBI reduced its rate of
spending on Sentinel and instituted a more direct approach to monitoring
the development of the system’s functionality. As a result, the FBI reduced
the risk that Sentinel will either exceed its budget or fail to deliver the
expected functionality. As of August 12, 2011, the FBI had expended only
35 percent of its $32.6 million Agile development budget.

       In response to a draft of our report, the FBI reported that as of
December 2, 2011, only 52 percent of Sentinel’s $32.6 million Agile
development budget had been expended. Because the FBI reported this
cost data to us after we had completed our fieldwork for this report, we were
unable to verify the accuracy of this information. We will evaluate the
accuracy of this data as we continue our audit, but the OIG, at the time of
this report, makes no representations as to the accuracy of this reported
budget figure.

      The FBI’s original schedule for developing Sentinel utilizing the Agile
methodology was for development to be completed in September 2011. As
of August 12, 2011, the FBI was 88 percent of the way through its original
Agile development schedule, and it only had developed 50 percent of the
system’s planned functionality. As noted above, the Sentinel development
schedule has been extended to February 2012 with an estimated May 2012
FBI-wide deployment.

      During the Agile development of Sentinel, the FBI has revised its
targeted dates for developing and deploying interim functionality and the

      4
         The waterfall development method is linear and sequential. Under the waterfall
method, a project is broken into phases, such as design, development, and operations and
maintenance. Each phase of the project has distinct goals. Once a phase of a project is
completed, the development proceeds to the next phase and there is no returning to the
previous phase.



                                          -3-
final system to users. At the beginning of Agile development in
October 2010, the FBI planned to release new functionality to all users
through four releases on a quarterly basis, with the releases completed by
October 2011. That plan changed in the spring of 2011, when the FBI
planned to release Sentinel functionality to users through two releases, the
first in September 2011 and a final deployment in November 2011. The first
deployment, called the System of Record Release and planned for
September 2011, was to provide all Sentinel users with the capability to
perform all critical case management functions completely within the
Sentinel system. For example, users were to be able to use Sentinel to open
a case, add investigative documents, search for case information, and assign
leads. The final deployment, called the Full Operating Capability Release
and planned for November 2011, was to provide users with a fully-functional
electronic case management system by adding functionality such as the
ability to update the chain of custody on pieces of evidence.

        However, the FBI then extended its Sentinel development and
deployment schedules. As of August 2011, the development completion
date for Sentinel was extended from September to December 2011, and a
full, single deployment of Sentinel to all users was planned to occur in late
January 2012. This release would again be called the Full Operating
Capability Release and was intended to give Sentinel users complete
electronic case management capability.

      Instead of deploying Sentinel at the end of September 2011, on
October 6, 2011, the FBI conducted a testing exercise, called the Sentinel
Functional Exercise, during which 743 participants from across the FBI used
Sentinel as the case management system. During the exercise, the system
experienced two outages and the FBI later determined that the current
hardware infrastructure was inadequate. As a result, in December 2011,
after we provided the FBI with a draft of our report, the FBI Chief
Technology Officer (CTO) informed us that due to problems encountered
during the Sentinel Functional Exercise the FBI had extended the schedule
for the completion of Sentinel’s development to February 2012. The
extension of the development also moved the planned deployment of
Sentinel from January 2012 to May 2012.

        The FBI has not yet procured the needed additional hardware nor has
it fully assessed the personnel costs associated with the revised schedule.
As a result, the CTO stated the FBI did not know the exact impact that the
delay would have on Sentinel’s $451 million budget but he stated that he did
not foresee exceeding the $451 million ceiling. However, a senior FBI
contracting official said that the FBI intended to pay for the new hardware
with fiscal year 2012 Sentinel operations and maintenance funds.


                                     -4-
      Because of the uncertainties associated with this new procurement and
the cost associated with the additional delay to Sentinel’s development and
deployment, we remain concerned about the FBI’s abilities to remain within
its $451 million budget, even when using Sentinel’s operations and
maintenance funds for the development and deployment of Sentinel. We
also continue to believe it will be challenging for the FBI to meet this latest
goal for deploying Sentinel to all FBI users in this timeframe.

      We reviewed data available in August 2011 and found that the rate at
which Sentinel is being developed needed to significantly increase for the FBI
to meet its revised target deployment goal of January 2012, which as of
December 2011 had been extended again to May 2012. We continue to be
concerned about the FBI’s ability to meet this new deployment goal, as any
delay in the completion of the development of Sentinel could increase the
cost of development and decrease the remaining budgeted funds. As of
August 26, 2011, the FBI reported that it had developed 50 percent of the
functionality originally planned for Sentinel during the first 44 weeks of its
planned 60-week development phase. 5

      The amount of working functionality developed during a 2-week
segment, known as a sprint, is the primary measure of an Agile project’s
progress. To be complete, functionality must be of a quality releasable to all
Sentinel users and meet technical and usability criteria specified in Sentinel’s
Program Management Plan. We found that the FBI has not documented
whether any of the functionality that it accepted as complete at the
conclusion of any sprints met those criteria. Therefore, we cannot evaluate
whether the FBI’s reported development progress is accurate. In addition,
we found that Sentinel personnel had identified developed functionality as
complete before required testing had concluded. In our judgment, failure by
project personnel to review developed functionality against Sentinel’s
predefined testing and acceptance criteria before acceptance unnecessarily
increases the risk that undetected flaws in the system could surface at a
point in the project where repair would require more time and funding than
had the flaw been detected by a proper functionality assessment in the first
instance. An FBI official stated that the Agile Team conducts additional
testing after the conclusion of each sprint. As functionality is developed, the
FBI tests it as part of the overall system. If at any point functionality fails to

      5
         In September 2011, the FBI revised its plan for completing the development of
Sentinel and added 12 weeks of development, extending the development to 60 weeks with
a conclusion date of December 2011. In December 2011, after the FBI reviewed a draft of
our report, the FBI revised its plan for completing the development of Sentinel and added
another 18 weeks of development, extending the development to 68 weeks with an
estimated conclusion date of May 2012.



                                          -5-
meet testing criteria, the FBI then changes the status of that functionality to
incomplete, and the Agile Team must resolve the identified issue.

       We are also concerned that information regarding the Sentinel project
and its development has not been adequately shared with other project
stakeholders. For example, the Independent Verification and Validation
(IV&V) Team, which is made up of contractor staff, informed us that the FBI
has prevented it from performing timely reviews of documentation of the
FBI’s development of the Sentinel system. 6 According to the IV&V team,
this restriction has inhibited the IV&V Team’s ability to provide to the FBI
early reviews and assessments of the maturity of Sentinel’s design, and the
way in which important elements of the system, such as search functionality
and access controls, will work together to provide users with the capabilities
that they require. The FBI CTO stated that the FBI believes that it has
provided the IV&V Team with access to all relevant information necessary for
the IV&V Team to complete its objectives. He also said that allowing the
IV&V Team expanded access to information would risk interference with the
progress that developers are making during each 2-week sprint.

      As the completion of Sentinel development has now been extended
beyond the FBI’s target Agile development completion date of
September 2011 to February 2012, additional costs will be incurred and
could start to negatively affect the FBI’s ability to deliver Sentinel within its
budget. In 2006, the FBI originally planned to use Sentinel funds to support
Sentinel operations and maintenance for 2 years after full implementation of
the system. According to the FBI in July 2011, Sentinel’s $451 million
budget was sufficient to fund the completion of Sentinel’s development and
its operations and maintenance through May 2012. However, according to
FBI officials’ statements that Sentinel will not be deployed until May 2012 it
appears that the Sentinel budget will not fund operations and maintenance
after Sentinel’s planned deployment. 7 To account for technological advances


       6
         IV&V is a standard Information Technology Investment Management process
whereby an independent entity assesses the system as it is developed in order to evaluate
whether the software will perform as intended.
       7
          According to the FBI, the FBI contracted with Lockheed Martin in 2007 for 5 years
of operations and maintenance support, which began in May 2007 and will end in May 2012.
Since Lockheed Martin is still fulfilling its contractual obligations, the FBI is receiving the full
5 years of operations and maintenance it contracted for at the outset of the Sentinel
program. However, as we stated in our previous report, because Sentinel is behind
schedule, the $451 million will not fund the operations and maintenance of Sentinel for
2 years after its completion, as originally intended. (U.S. Department of Justice Office of
the Inspector General, Status of the Federal Bureau of Investigation’s Implementation of
the Sentinel Project, Report 11-01 (October 2010))



                                               -6-
and changes to the FBI’s policies and business practices, the FBI plans to
make additions and deletions to Sentinel’s 7 year old requirements. As of
August 2011, the FBI had neither finalized its revisions to the requirements
nor supplied us with details concerning expected changes to the system. As
a result, we cannot comment on the impact such changes will have on
Sentinel’s functionality or the cost and schedule impact of these changes.

Background

      The FBI’s attempt to move from a paper-based to an electronic case
management system began in 2001 with the Virtual Case File (VCF), a major
component of the FBI’s Trilogy IT modernization project. Designed to
replace the obsolete Automated Case Support (ACS) system, the FBI
abandoned the VCF project in 2005 after spending $170 million. As detailed
in the OIG’s February 2005 audit report, the VCF project failed for a variety
of reasons, including poorly defined design requirements, a lack of mature
management processes, high management turnover, and poor oversight. 8

      On March 16, 2006, the FBI announced the award of a $305 million
contract to Lockheed Martin as part of a $425 million project to develop
Sentinel, a new electronic case management system. The FBI expected to
implement Sentinel in four overlapping phases, each lasting 12 to
16 months. Each phase was intended to provide a stand-alone set of
capabilities upon which subsequent phases would add further capabilities.
The fourth and final phase of Sentinel was originally scheduled to be
completed by December 2009.

      The FBI intended that Sentinel, when fully implemented, would provide
FBI agents and analysts with a user-friendly, web-based electronic case
management system that would give them the ability to manage evidence
and automate the document review and approval process. Additionally,
Sentinel was designed to be the official FBI records repository and provide
users with expanded search capabilities, enhancing agents’ ability to link
cases with similar information. The FBI planned to migrate all data from
ACS to Sentinel and eventually retire ACS. 9

       8
        OIG, The Federal Bureau of Investigation’s Management of the Trilogy Information
Technology Modernization Project, Audit Report 05-07 (February 2005).
       9
          Implemented in October 1995, ACS is the FBI’s current case management system.
As of May 2011, ACS contained records for over 9.4 million cases. While ACS is an
electronic repository of investigative documents, it does not have the capability for FBI
employees to electronically sign documents. As a result, FBI agents and officials must sign
printed copies of the documents contained in ACS. These printed copies of investigative
documents are the official records.



                                           -7-
     On June 19, 2007, the FBI announced that it had fully deployed
Phase 1 of Sentinel. Phase 1 delivered two key project components: a web-
based portal to ACS and workboxes for FBI agents and supervisors that
summarized case information. 10

      As a result of lessons learned during the development of Phase 1, the
FBI and Lockheed Martin re-planned the remaining three phases of Sentinel.
The FBI estimated that the total cost of Sentinel would increase from
$425 million to $451 million and the projected completion date was
extended from December 2009 to June 2010. Also, the FBI and Lockheed
Martin adopted an incremental development methodology for the remaining
portions of Sentinel that divided Phases 2 through 4 into segments, which
were further divided into increments. A major reason for switching to this
incremental development model was the FBI’s desire to deliver new
capabilities to users every 3 to 6 months. Phase 2 was divided into four
segments. By July 2009, Lockheed Martin had delivered the first three
segments of Phase 2.

      In December 2009, the FBI conditionally accepted delivery of
Sentinel’s Phase 2, Segment 4, which included three of the eight electronic
forms that the FBI expected to be delivered in Segment 4. 11 However, the
FBI did not deploy Segment 4 to its agents and analysts at the time because
the system had serious performance and usability issues, and it had received
overwhelmingly negative user feedback from FBI agents and analysts who
tested the system. The acceptance was conditioned on the premise that
Lockheed Martin would resolve these issues before the FBI would fully accept
and deploy Segment 4. In July 2010, the FBI deployed Segment 4 of
Phase 2 to FBI agents and analysts. Lockheed Martin resolved the FBI’s
concerns and the FBI officially accepted Segment 4 in October 2010.

      In July 2010, the FBI issued a stop-work order that directed Lockheed
Martin to cease all work on the remaining phases of Sentinel – Phases 3

       10
         A personal workbox summarizes a user’s cases and leads. A lead is a request
from an FBI field office or a headquarters division for assistance in an investigation. A
squad workbox helps supervisors manage personnel resources.
       11
           The three forms delivered were: (1) Electronic Communication, (2) Lead
Request, and (3) Report of Information That May Become the Subject of Testimony. The
five forms not delivered were: (1) Intelligence Bulletin, (2) Search Results Document,
(3) Payment Authorization, (4) Export Form, and (5) Import Form. In addition, Lockheed
Martin delivered the capability to transfer all of the administrative case files – approximately
2 percent of all FBI case files – from ACS to Sentinel, an on-line user help tool, and
interfaces to two FBI IT systems (the Document Conversion Laboratory and the Financial
Management System).



                                             -8-
and 4. The FBI was concerned about an independent assessment that
projected it would take the FBI an additional 6 years and $351 million to
finish the project. 12 The FBI informed the OIG in September 2010 that it
would assume full control and responsibility for Sentinel development from
Lockheed Martin and complete the development of Sentinel using an Agile
development methodology.

Transition to Agile Development Approach

       Agile software development is not a set of tools or a single
methodology, but an approach that leverages close collaboration between
representatives of system users, system developers, and testers to deliver
functionality in a compressed timeframe and on a continuous basis. The
delivery of working software is the primary measure of progress, and
satisfying customers through the delivery of valuable software is treated as
the highest priority during development.

      While an Agile methodology can be implemented in a variety of ways,
the FBI is implementing a variation called Scrum, an iterative methodology
which breaks the development effort into increments called sprints, each of
which the FBI decided would last 2 weeks. 13 At the conclusion of each
sprint, User Stories – functions that a system user would typically perform –
along with Architecture Stories – qualities that define the system software
architecture and configuration – are planned and completed, and it is the
successful completion of these stories that is measured as progress for the
project. 14 (See Appendix I for additional information on the Sentinel Agile
Development Approach.)

Sentinel Project Status

      In October 2010, the FBI assumed from Lockheed Martin direct control
of, and responsibility for, Sentinel development activities and initiated an
Agile approach to developing Sentinel. As of August 2011, the FBI’s Agile
       12
          The independent assessment was performed by Mitre, a federally funded research
and development center that assists the government with scientific research and analysis;
development and acquisition of large, complex systems; and systems engineering and
integration.
       13
          Sprints can last from 2 weeks to 4 weeks. The FBI has chosen for its sprints to
last 2 weeks.
       14
           User Stories define functions that a system user would typically perform such as
opening and closing a case or completing a form. Architecture Stories identify the hardware
that the FBI will use to build Sentinel. These stories also describe the way in which the FBI
will configure that hardware.



                                           -9-
development of Sentinel appeared to be under its allotted budget of
$32.6 million; however, its scheduled deployment had been extended to
January 2012. The FBI had estimated that development of Sentinel would
conclude in December 2011 and a fully functional Sentinel system would be
deployed to users in January 2012. 15 This estimate represented a departure
from its most recent previous plan in which the FBI had anticipated that it
would conclude development in September 2011 and deploy a fully
functional Sentinel system to users in November 2011. In December 2011,
after we provided the FBI with a draft of our report, the FBI CTO informed us
that due to problems encountered during testing, the FBI had again
extended the schedule for the completion of Sentinel’s development to
February 2012. The extension of the development also moved the planned
deployment of Sentinel from January 2012 to May 2012. The FBI’s
$451 million estimate of Sentinel’s cost has remained unchanged since our
last report, issued in October 2010. However, the FBI is currently assessing
the impact that the schedule extension will have on Sentinel’s budget.

Budget

       In our October 2010 report, we reported that as of August 2010, the
FBI had spent about $405 million of the $451 million budgeted for the
Sentinel project. 16 Of the $48.5 million remaining in the overall Sentinel
budget at the beginning of FY 2011, the FBI budgeted $32.6 million for
functionality development. The FBI reported spending a total of about
$11.3 million on functionality development between October 2010 and
August 2011, or approximately 35 percent of its $32.6 million budget.
During the same period, the FBI reported that it developed 50 percent of
Sentinel’s functionality. In response to a draft of our report, the FBI
reported spending a total of about $17 million on functionality development
between October 2010 and December 2, 2011, or approximately 52 percent
of its $32.6 million budget. Because the FBI reported this cost data to us
after we had completed our fieldwork for this report, we were unable to
verify the accuracy of this information. We will evaluate the accuracy of this
data as we continue our audit, but the OIG, at the time of this report, makes
no representations as to the accuracy of this reported budget figure.


       15
          The FBI Chief Information Officer (CIO) stated that the FBI would test and make
adjustments to the system for approximately 6 weeks after the Agile Team had concluded
development in December 2011 to help increase the likelihood of a successful deployment
of system functionality to all Sentinel users, which at the time was planned for
January 2012.
       16
        After we issued our last report, the FBI revised the amount spent through
September 30, 2010, to $402.5 million.



                                          - 10 -
      However, as discussed in the following section of this report, we are
concerned about the FBI’s ability to complete development by February
2012, which would affect the FBI’s ability to fully deploy Sentinel to all users
by May 2012. Any delay in the completion of the development of Sentinel
could increase the cost of development and decrease the remaining
budgeted funds. Notwithstanding the potential for any cost and schedule
increases, the cost and schedule for completing Sentinel using Agile
development is substantially less than Mitre’s projection that it would take
an additional 6 years and $351 million to finish the project.

       While the FBI appeared to be within its $451 million budget, we note
that schedule slippage and the elimination of unneeded Sentinel project staff
positions have been contributing factors to this apparent adherence, and the
FBI’s development budget no longer includes 2 years of operations and
maintenance activities after development concludes. When the $451 million
currently budgeted for the entire Sentinel program was approved, the FBI
intended that amount to include operations and maintenance costs for
2 years after full implementation of the entire project. 17 According to the
FBI, the $451 million is now sufficient to only fund the completion of
Sentinel’s development. Because the FBI does not plan to complete the
development of Sentinel until May 2012, the $451 million will not fund the
operations and maintenance of Sentinel for 2 years after its full development
is completed, as originally intended. Because of the uncertainties associated
with the FBI’s December 2011 decision to extend Sentinel’s schedule and the
newly planned procurement of additional computer hardware, we remain
concerned about the FBI’s abilities to remain within its $451 million budget,
even when including the use of Sentinel’s operations and maintenance funds
for the development and deployment of Sentinel.




       17
           The purpose of operations and maintenance is (1) to maintain and support
functionality, and (2) to manage and implement necessary modifications to functionality
after the conclusion of the development phase.



                                          - 11 -
Development Progress

       As of August 26, 2011, the FBI had completed 22 of 24 planned
sprints. 18 Under the Scrum approach, a project’s progress and amount of
work remaining is measured using a burndown chart, which depicts how
factors such as the rate at which a development team completes work (a
team’s velocity) and changes in a project’s scope affect its likelihood of
staying on schedule and within budget over time. This information can be
used by project management and project stakeholders to estimate the
duration of the project or the amount of work that can be completed within
an identified amount of time. As shown in the following chart, during the
first 22 sprints (Sprint 0 through Sprint 21), the FBI had completed 1,545 of
the 3,093 story points (1,548 remaining) that it identified at the beginning of
the project, or about 50 percent. 19




       18
          The first sprint is named Sprint 0, so Sprint 21 was the twenty-second sprint. In
September 2011, the FBI added six additional sprints to the development schedule,
extending the development end date to December 2011. We discuss both the 24-sprint and
30-sprint timelines in our analyses that follow.

       In December 2011, after we provided the FBI with a draft of our report, the FBI CTO
informed us that due to problems encountered during testing, the FBI had again extended
the schedule for the completion of Sentinel’s development by three sprints to
February 2012. As of December 2, 2011, the FBI reported that it had completed 28 of 33
planned sprints. This extension to the Sentinel development plan also moved the planned
deployment of Sentinel from January 2012 to May 2012.
       19
           As we discuss in more detail in the Sentinel Governance section of this report, we
were unable to verify whether the FBI had completed the reported number of story points
because we were unable to verify whether the FBI had applied its completion criteria to all
of the accepted stories. In December 2011, after the FBI had received a copy of our draft
report, the FBI reported to us that as of December 2, 2011, it had completed 2,345 story
points and that 748 remained to be completed.




                                           - 12 -
                                                                Story Weight (Story Points)




                                                      0
                                                          500
                                                                   1,000
                                                                                 1,500
                                                                                         2,000
                                                                                                 2,500
                                                                                                         3,000
                                                                                                                          3,500
                                           Baseline




                                                                                                                 3,093
                                     Spr0: 10/25/10




         Source: The FBI
                                           Sprint 1
                                           Sprint 2
                                           Sprint 3
                                           Sprint 4
                                      Spr5: 1/14/11
                                           Sprint 6
                                           Sprint 7
                                           Sprint 8
                                           Sprint 9
                                          Sprint 10
                                          Sprint 11




- 13 -
                           Sprints
                                          Sprint 12
                                      Spr13: 5/6/11
                                                                                                                 Plan




                                          Sprint 14
                                          Sprint 15
                                          Sprint 16
                                                                                                                                            Sentinel Functionality Burndown Chart




                                      Spr17: 7/1/11
                                          Sprint 18
                                                                                                                 Actual




                                          Sprint 19
                                          Sprint 20
                                                                                                                                  Sprint 0 through Sprint 21 (or through August 26, 2011)




                                          Sprint 21
                                                                         1,548




                                          Sprint 22
                                                                       remaining
                                                                      story points

                                                                    as of August 26




                                     Spr23: 9/30/11
      According to FBI officials, after five sprints have been completed, the
velocity, or rate at which an Agile team completes story points, can be used
to project the completion rate of future work. During Sprints 5 through 21,
the Sentinel team’s average velocity was 80 story points per sprint. During
our review, we estimated that if the team’s velocity remained at 80 story
points per sprint, the FBI would complete about 55 percent of the intended
functionality by the end of the project’s originally planned 24 sprints on
September 23, 2011. At that rate of development we estimated that
Sentinel will be completed in June 2012.

      On September 6, 2011, the FBI CIO stated that the FBI had added six
development sprints to Sentinel’s development schedule and that the FBI
then planned to end development on December 16, 2011, after 30 sprints.
After development ended, the FBI planned to test Sentinel for about 6 weeks
and then deploy the system to all users in January 2012. During the
additional development sprints, the FBI planned to finish the functionality
work that it previously planned to complete by September 23, 2011. Based
on the average velocity of 80 story points per sprint, and the number of
remaining story points to be completed (1,548) we estimated that the FBI
would complete about 71 percent of the intended functionality by the end of
the project’s 30 development sprints on December 16, 2011.

      On December 1, 2011, the FBI again extended the schedule for the
completion of Sentinel. The CTO stated that the FBI had added four
development sprints to Sentinel’s development schedule and that the FBI
now plans to end development in February 2012, after 34 sprints. After
development, the FBI plans to test Sentinel for about 12 weeks and then
deploy the system to all users in May 2012. During this testing period, the
FBI plans to test Sentinel’s hardware and execute a test of all major Sentinel
functionality that will involve personnel from across the FBI.

      Also in December 2011, after the FBI received a copy of our draft
report, the FBI reported to us that during Sprints 5 through 28 it had
completed 2,167 story points, an average of 90 story points per sprint –
10 more story points than its average rate as of September 2011. Based on
this average velocity and the number of remaining story points to be
completed (748) during the final 5 sprints under this plan, the Sentinel team
must increase its average velocity to approximately 150 story points per
sprint. However, the six sprints between the end of development and
deployment – during which the FBI will test Sentinel – could also have story
points assigned to them that the FBI is not accounting for at this time, and
as a result the total number of story points to complete the project could
increase. Without including such an increase, the FBI would need to average
about 68 story points per sprint over the total 11 sprints remaining before


                                    - 14 -
the planned May 2012 deployment. We have not verified this latest
information provided by the FBI and make no representations regarding the
FBI’s most recent plan for the delivery of Sentinel or the ability of the FBI to
meet its goal. As we continue our review we will evaluate the accuracy of
the FBI’s latest information and its latest revised plan for completing
Sentinel.

      Another measure of Sentinel’s progress is how it meets the Sentinel
System Requirements Specification (SRS), the official set of project
requirements. The Sentinel SRS identifies 1,098 numbered requirements
and their associated functionality for the FBI to fully develop, test, and
provide to Sentinel users. According to project officials, as of
August 12, 2011, the FBI had satisfied 56 percent (615 of 1,098) of
Sentinel’s SRS requirements. 20

       Additionally, because Sentinel’s requirements are now nearly 7 years
old, the FBI plans to add and delete SRS requirements. The requirements
will be changed due to changes in the FBI’s policies and business practices
over the past 7 years, as well as changes in the technologies that are now
available to the project. These changes will likely have an impact on the
number of SRS requirements the FBI has satisfied as of August 2011, but
the FBI has neither finalized its revisions to the SRS nor supplied us with
details concerning expected changes to the system. Therefore, we cannot
comment on the impact such changes will have on Sentinel’s functionality
and development requirements.

      Data Migration

      One of the requirements the FBI plans to modify is the requirement
that all data currently in ACS be transferred to Sentinel. ACS is the FBI’s
current repository for electronic case management data. Deployed in 1995,
ACS contains over 9 million cases. While the migration of data from ACS to
Sentinel is not a numbered SRS requirement, the SRS states that legacy
data from subsumed FBI systems will be migrated to Sentinel. During
Phases 1 and 2 of Sentinel, Lockheed Martin and the FBI spent considerable
time and effort to determine how to transfer case and administrative data
from ACS to Sentinel. The FBI and Lockheed Martin agreed that because the

      20
           On December 6, 2011, the FBI reported to us that as of December 1, 2011, it had
satisfied 88 percent (944 of 1,070) of Sentinel’s SRS requirements. However, the FBI did
not explain why the number of SRS requirements had decreased by 28, from 1,098 to
1,070. Further, any reduction to SRS requirements must be approved by the FBI’s
Executive Steering Council, which FBI officials stated was scheduled to meet on
December 14, 2011. Moreover, we have not yet corroborated this information and make no
representations as to its accuracy.


                                         - 15 -
method that they identified to migrate the administrative case data would
take too long, a new migration strategy would be needed to transfer case
files to Sentinel.

       During Agile development of Sentinel, the FBI’s plans for ACS data
have evolved. After switching to Agile development, the FBI initially
determined that it would not migrate any data from ACS to Sentinel as it
had originally planned. The FBI later revisited the issue and planned to
migrate some case data from ACS to Sentinel, mainly information about
administrative aspects of cases such as the case title, case number, and the
start date. In November 2011, the FBI said that data from open cases and
the text of investigative documents stored in ACS will be migrated to
Sentinel when agents choose to migrate cases based on activity.

Project Status – Functionality Deliverables

      As previously noted, as of August 2011, none of the functionality
developed under the Agile approach has been deployed to all Sentinel users.
In March 2011, the FBI provided us with a briefing describing its plan to
deploy Sentinel in three releases. As part of that plan, the FBI intended to
replace the functionality delivered to Sentinel users during Phases 1 and 2
with new versions developed as part of the Agile development effort.
Additionally, the FBI planned to deliver the remaining functionality
associated with the SRS requirements that were not satisfied during
Phases 1 and 2. The following table compares the project milestones and
target dates in the FBI’s March 2011 plan with the actual dates those
milestones were achieved and the FBI’s updated December 2011 plan for
achieving any unfinished milestones.




                                   - 16 -
                               Sentinel Milestones
                    (October 2010 through Project Completion)

                                                               Original           Revised
                                                              Proposed           Projected
                                                              End Date           End Date
                                                                 as of             as of
Task                                         Start Date       March 2011       December 2011
System of Record (SOR)                                                            7/1/2011
                                              10/1/2010        7/1/2011
Functionality Development                                                        Completed
Sentinel Advisory Group (SAG)                                                    3/31/2011
                                              3/30/2011       3/31/2011
Testing                                                                          Completed
                                                                                 10/6/2011
Sentinel Functional Exercise                  10/6/2011          N/A 21
                                                                                 Completed
SOR Functionality Deployment                                   9/1/2011         Discontinued
Full Operating Capability (FOC)
                                   7/1/2011                   9/23/2011        February 2012
Functionality Development 22
FOC Functionality Testing22        9/23/2011                 11/18/2011           April 2012
                                22
FOC Functionality Deployment                                 11/18/2011           May 2012
  Source: OIG analysis of FBI data

      The first deployment the FBI planned was a User Validation Release,
 which the FBI presented to the Sentinel Advisory Group (SAG) in late




         21
              The Sentinel Functional Exercise was not part of the FBI’s original deployment
 plan.
         22
          After reviewing a draft of our report, the CTO provided the revised dates for
 completing Sentinel development, functional testing, and deployment. These dates had not
 been approved by the FBI’s Executive Steering Council, which was scheduled to meet in
 December 2011 regarding the Sentinel project.



                                              - 17 -
March 2011. 23 The SAG is composed of 24 FBI employees and is intended to
serve as an independent functionality validation group of Sentinel users who
will test newly developed Sentinel functionalities before they are deployed.

      The SAG conducted its first review of Sentinel on March 30 and 31,
2011 by testing the functionality developed through Sprint 8, which ended
February 25, 2011. 24 The SAG reviewed several functional areas of the
system, including tasks and forms that agents and analysts frequently
complete. The areas tested included: (1) creation of electronic
communications (EC) and attachments; (2) creation of FD-302 forms;
(3) creation of Import Forms and attachments; and (4) leads, routing, and
workflow. 25

      According to the SAG Meeting Report, on a scale from 1 (least
favorable) to 5 (most favorable), on average, users rated each of the
functional areas a 4 or higher. In general, SAG members said the basic
functions of Sentinel were easy to use. However, testers suggested some
improvements such as making notifications of new or unread work items
more prominent on the screen.

     In addition, we note that 3 of the 4 forms that the FBI delivered to the
SAG had been previously deployed to Sentinel users in July 2010 as part of

       23
           The Sentinel Program Manager formed the SAG to serve as an independent
validation group for the continuing development of Sentinel. The SAG, which first met in
March 2011, represents all FBI Sentinel users that will rely on Sentinel as the FBI’s official
electronic recordkeeping and case management system. The 24 FBI employees on the SAG
are intended to be a functional and geographic representation of the approximately
30,000 FBI employees who will use Sentinel. Collectively, the group’s members have
current or previous experience as special agents, investigative support personnel,
intelligence analysts, and general clerical and administrative technicians. They have worked
at 17 field offices, 13 headquarters divisions, and 3 resident agencies and have an average
of 15 years experience with the FBI in a variety of investigative, intelligence, and
administrative programs. The SAG is expected to review and validate Sentinel once every
6 weeks through September 2011. The SAG members are expected to provide feedback to
the Sentinel development team prior to that functionality being deployed to all users,
including identification of functionality that does not work properly.
       24
         According to the FBI, the User Validation Release represented the FBI’s
completion of 184 of the 670 stories in the Sentinel Product Backlog.
       25
           FD-302 Forms are used by the FBI to record investigative activity such as
interviews. The Import Form will allow users to add forms created outside of Sentinel to
cases that are stored in Sentinel. Leads are a formal mechanism to track accountability on
assignments. Routing is the capability to assign leads to appropriate personnel. Workflow
is the automation of a business process, in whole or in part, during which documents,
information, or tasks are passed from one participant (human or machine) to another for
action, according to a set of procedural rules.


                                           - 18 -
the pre-Agile development Phase 2, Segment 4 release. Thus, these ratings
should be expected to be positive because they had previously gone through
one phase of user testing. Also, we reviewed the results of the FBI’s survey
of SAG users in March 2011 and found that the closed-end survey items and
the presentation of the ratings were structured in a way that elicited positive
responses. Specifically, the statements included positive assumptions about
a user’s experience with Sentinel. For example, the following survey item
assumes that a user found Sentinel easy to use: “The Sentinel functionality
was easy to use.” Also, the most positive responses appeared first on the
rating scale. Survey participants may be more likely not to read all of the
alternatives when presented with a positive response first. We found no
evidence, however, that the FBI chose the structure of the closed-end
survey items or the presentation of the ratings with the intent of eliciting
positive responses.

      In response to a draft of our report, the FBI disagreed with our
concerns about the closed-end survey questions, stating that the survey had
been reviewed by survey experts and was designed using industry best
practices. An FBI official stated the survey also included questions that
asked participants for narrative responses such as, “Did you have any
concerns/challenges with this Sentinel functionality? If so, please explain.”
In addition, this official also said that the FBI believes that the FBI’s survey
has provided valuable feedback to the Sentinel program regarding what
users liked and disliked as well as suggestions for improvement.

      From October 2010, when the FBI began the Agile development of
Sentinel, to August 2011, the FBI planned a minimum of two deployments of
functionality to all Sentinel users for use with official data. Prior to
August 2011, the FBI had planned to deploy the first release, called the
System of Record (SOR) Release, to all Sentinel users in September 2011.
According to the FBI’s original plan, the SOR Release deployment would
have included the FBI’s completion of 357 of the 670 stories in the Sentinel
Product Backlog. According to the FBI CIO, if successfully deployed as
planned, the SOR Release would have given all Sentinel users the capability
to perform all critical case management functions completely within Sentinel.
For example, users would have the ability to: (1) manage leads,
(2) electronically create and process several forms through their entire
associated workflow, (3) manage all cases, and (4) perform searches of data
stored in ACS and Sentinel. 26 (See Appendix I for additional information on
the Sentinel Agile Development Approach.)

       26
         The FBI had planned to give users the ability to create the following forms when it
would have deployed SOR Release functionality in September 2011: (1) EC, (2) FD-302,
(3) Import Form, and (4) Victim Notification Form.



                                          - 19 -
        In June and July 2011, the FBI piloted the SOR Release of Sentinel at
its field offices in Washington, D.C.; Chicago, Illinois; and Memphis,
Tennessee. The results of the pilot tests were less positive than the SAG
test. Specifically, the results of the Washington, D.C., and SAG pilot tests,
which included on-site Sentinel experts, were similar. The results of the
Chicago and Memphis pilot tests, which did not include on-site Sentinel
experts, were less positive. On average, the managers, agents, and
analysts who participated in the pilot rated Sentinel’s functionality and
responsiveness a 3 on a scale from 1 (least favorable) to 5 (most
favorable). 27

      In early August 2011, the FBI Chief Technology Officer (CTO) said that
the FBI decided to not deploy the SOR Release at the end of September, as
the FBI had planned, because of two other events that were expected to
increase the workload of the FBI’s agents during that month. The first event
was the 10-year anniversary of the September 11, 2001, terrorist attacks,
which the FBI anticipated would result in an increased threat environment.
The second event was the release of a new FBI Domestic Investigations and
Operations Guide. 28

       Instead of deploying Sentinel at the end of September, the FBI
conducted a testing exercise on October 6, 2011, during which
743 participants from the FBI’s 56 field offices, several Headquarters
Divisions, and several overseas offices used Sentinel as the case
management system. According to the FBI’s CTO, the exercise, called the
Sentinel Functional Exercise, simulated 13 scenarios intended to require
users to complete typical case management tasks using Sentinel. During
the exercise, Sentinel operated on the FBI’s network and employed the same
infrastructure it will use when it is deployed to all FBI agents and analysts.
The objectives of the exercise were to:

       •    examine Sentinel functionality in a simultaneous, enterprise-wide
            exercise environment;

       •    conduct usability tests to determine if Sentinel meets user needs
            and functions as designed;



       27
          We reviewed the results of the FBI’s survey of the pilot of the SOR Release in
June and July 2011 and found that the survey questions and the presentation of the ratings
were structured in a way that could have elicited more positive responses.
       28
         The Domestic Investigations and Operations Guide describes the procedures FBI
employees must follow when conducting domestic investigations.



                                          - 20 -
      •   promote user awareness in Sentinel prior to its deployment to all
          users; and

      •   obtain user feedback.

       In our judgment, the Sentinel Functional Exercise was an important
step in Sentinel’s testing. The results of the exercise should provide useful
information to project executives so that they will be better able to more
effectively, efficiently, and accurately chart Sentinel’s course to development
completion. However, we are concerned that Sentinel’s performance during
the exercise may inhibit users’ acceptance of Sentinel once it is fully
deployed. Following the exercise, the FBI’s Chief Knowledge Officer stated
that his preliminary review of the exercise’s participant feedback indicated
that users liked Sentinel’s usability and functionality but that poor system
performance and two system outages during the 4-hour exercise could have
undermined users’ trust and interest in using the system. In our opinion,
the FBI would benefit from conducting an additional exercise prior to
releasing system functionality to all users. An FBI official stated that project
personnel collected extensive user feedback and survey data during the
Sentinel Functional Exercise and analysis of the data by the FBI is ongoing.

       Under the FBI’s September 2011 plan, the first and only full
deployment to all Sentinel users, called the Full Operating Capability (FOC)
Release, was scheduled to be deployed to users in January 2012. FBI
officials stated that the FOC Release would include the completion of all of
the stories in the Product Backlog. The FBI CIO stated that, originally, the
FBI would have used the FOC Release to refine the functionality that it
intended to deliver to users during the SOR Release deployment and add
capabilities that would have enhanced usability and efficiency. For example,
the FBI anticipated adding the capability for users to create reports, index
documents, and manage evidence. Instead, the FBI will deploy all Sentinel
electronic case management functionality, including those capabilities, to
users during the FOC Release.

      As described above, Sentinel experienced significant performance
problems during the Sentinel Functional Exercise. The FBI attributed these
performance problems to either the system architecture or the computer
hardware. According to the FBI, subsequent operational testing confirmed
the inadequacy of the legacy hardware and the requirement to significantly
expand the infrastructure before the system could be deployed to all users.
In November 2011, the FBI requested that Lockheed Martin provide a cost
proposal for this additional hardware. The hardware is under negotiation,
and a senior FBI contracting official said that the FBI intended to pay for the



                                     - 21 -
new hardware with fiscal year 2012 Sentinel operations and maintenance
funds.

      As a result, in December 2011, after we provided the FBI with a draft
of our report, the FBI again extended the schedule for the completion of
Sentinel. As shown in the following chart, FBI officials stated that the FBI
now plans to complete the development of Sentinel in February 2012 and
deploy it to all users in May 2012.

                 Sentinel Milestones as of December 1, 2011
                   (December 2011 through May 2012) 29




       The Functional Software Sign-Off, scheduled for February 10, 2012,
will be the official end of the development of Sentinel’s software. At that
time, project officials expect to receive FBI executive approval of completed
Sentinel functionality. In March 2012, the FBI plans to test the system
hardware using the software developed and approved through the Functional
Software Sign-Off. In April 2012, the FBI plans to conduct a second Sentinel
Functional Exercise. On May 9, 2012, a complete version of Sentinel is
scheduled to be deployed for use by all FBI agents, analysts, managers, and
other personnel with a need for a case management system. According to
the FBI CTO, the FBI has not yet procured the needed additional hardware
nor has it fully assessed the personnel costs associated with the revised
schedule, and as a result, the FBI does not know the impact that the delay
will have on Sentinel’s $451 million budget. However, a senior FBI
contracting official said that the FBI intended to pay for the new hardware
with fiscal year 2012 Sentinel operations and maintenance funds. Because
of the uncertainties, we remain concerned about the FBI’s abilities to remain
within its budget, even when including the use of Sentinel’s operations and

       29
          The milestones and dates contained in this chart are not final and subject to
approval by the FBI’s Executive Steering Council, which FBI officials stated was scheduled to
occur on December 14, 2011.


                                           - 22 -
maintenance funds for the development and deployment of Sentinel. We
also continue to believe it will be challenging for the FBI to meet this latest
goal for deploying Sentinel to all FBI users in this timeframe.

Completion Criteria

      According to the Sentinel Program Management Plan, functionality
developed during each sprint must be of releasable quality before project
personnel can describe it as completed during each biweekly end-of-sprint
demonstration. The Sentinel Program Management Plan identifies criteria
that Agile Development Team personnel are required to review and satisfy
before functionality developed during a sprint can be labeled complete. In
broad terms, the FBI’s completion criteria, which incorporates the Scrum
approach, calls for any functionality described as completed at the
conclusion of the sprint to: (1) have been fully tested during the
corresponding sprint, (2) be ready for deployment to all users, and (3) be
demonstrable to project stakeholders at the demonstration held at the end
of each sprint. If the functionality does not meet the criteria, the associated
story should not be accepted and the incomplete functionality should be
returned to the Sentinel Product Backlog to be addressed in subsequent
sprints.

      While we found that the FBI has identified completion criteria, the FBI
did not document, and it was not apparent, whether any of the functionality
that was developed during Sprints 0 through 21 met those criteria. An Agile
Development Team official stated that required testing had not been
completed within the established time parameters because testing personnel
have encountered difficulty setting up testing programs, software, and
procedures. The Sentinel Product Owner, the person responsible for tracking
the completion of project work, stated that the completion criteria only
broadly informs project personnel whether functionality development has
been completed at the end of each sprint, and does not specifically address
whether functionality is completed.

      The Scrum method is an incremental approach that builds upon the
work completed in previous sprints. Because of this incremental process, we
believe it is vital that the Agile Development Team only claim fully tested
functionality as complete during the biweekly demonstration of a sprint’s
completion.

      Based upon the presentations at the biweekly sprint demonstrations,
we had no basis to determine whether the functionality demonstrated at the
end of each sprint was “field ready” as required under the Scrum approach.
We are concerned that without a consistent application of completion


                                     - 23 -
criteria, including verification that functionality is field ready, for the
identification of completed work, the FBI is unable to accurately assess
either the amount of remaining work or the reliability of the functionality
that it has designated as complete.

Contractual Changes

       In March 2011, approximately 5 months after the FBI initiated
development work using an Agile development methodology, the FBI
modified its existing contract with Lockheed Martin to reflect that
transition. 30 Under that contract modification, the FBI reduced Lockheed
Martin’s personnel working on the project from about 135 to approximately
10 employees, all of whom are engaged in operations and maintenance
activities. Instead, the project is now staffed by a mix of contractor and
government personnel totaling 55 positions. This modification gave the FBI
more direct access to Lockheed Martin’s subcontractors assigned to the
Sentinel project. The FBI’s CTO stated that Lockheed Martin is no longer
contractually obligated to satisfy the requirements in the Sentinel System
Requirements Specification (SRS); rather, it is solely the FBI’s responsibility,
and Lockheed Martin’s role in the completion of the SRS will be one of
support. 31 In addition, the FBI has incorporated into the contract
modification one option year for additional Agile development of Sentinel
functionality. 32

       In addition to Lockheed Martin and its subcontractors, the FBI has
continued to utilize, under its Scrum approach, the services and expertise of
several support contractors. An FBI official stated that as of March 2011,
the FBI has not identified final cost proposals for these support contractor
services and therefore has not finalized the corresponding contract
modifications. The Sentinel Contracting Officer stated that the FBI will
finalize these contract modifications after Sentinel Agile Development Team
management provides final approval of its staffing requirements, and the

       30
            This contract modification did not change the project’s total budget of
$451 million. The operations and maintenance contract remains as-is with Lockheed Martin
until at least 2012, when the FBI Information Technology Services Branch could begin to
manage Sentinel operations and maintenance activities using its own personnel and
contractors.
       31
          The Sentinel System Requirements Specification identifies the functionality that
Sentinel must provide to users.
       32
           This option year is part of the contract modification with Lockheed Martin to
account for changes in the FBI’s development approach. This option year, valued at
$4.5 million, would allow the FBI to engage Lockheed Martin for an additional year of
development activities from October 17, 2011, through October 19, 2012.



                                           - 24 -
support contractors will operate under their pre-existing Sentinel contracts
until then.

Sentinel Governance

       In the early stages of the Trilogy project, the OIG and
U.S. Government Accountability Office (GAO) recommended that the FBI
establish Information Technology Investment Management processes to
guide the development of its IT projects. In response, the FBI issued its Life
Cycle Management Directive (LCMD) in 2004. The LCMD covers the entire
life cycle for the FBI’s IT systems, including planning, acquisition,
development, testing, and operations and maintenance. As a result, the
LCMD provides the framework for standardized, repeatable, and sustainable
processes and best practices for the FBI in developing IT systems.
Application of the IT systems life cycle within the LCMD can also enhance
guidance for IT programs and projects, leverage technology, build
institutional knowledge, and ensure that development is based on industry
and government best practices.

System Documentation

      The FBI’s LCMD established policies and guidance applicable to all FBI
IT programs and projects, including Sentinel. However, while the LCMD
discusses several development approaches, it does not include criteria for
the implementation of an Agile development methodology. As a result, it is
not clear which system documents Sentinel project personnel must submit to
FBI IT project governance personnel and which reviews the project must
pass to achieve compliance with the FBI’s LCMD.

       We found that Sentinel program personnel disagree with FBI IT project
governance personnel and other Sentinel stakeholders about what
documents are required for the Sentinel project, what information those
documents should contain, when the documents should be delivered, and to
whom. Several entities, internal and external to the FBI, have expressed
concerns that the Sentinel program has not provided either necessary or
sufficient documentation for them to carry out their functions as they relate
to the Sentinel project. 33 For example, FBI IT governance officials expressed
concern that they were not provided documentation to establish that
security features were built into the foundation of Sentinel’s architecture.

       33
          These entities include, but may not be limited to, the: (1) Sentinel IV&V Team,
(2) FBI IT governance personnel, (3) FBI Sentinel Operations and Maintenance Transition
Support Unit, (4) FBI Product Assurance Unit, (5) Electronic Record Keeping Certification
personnel, (6) FBI Records Management Division, and (7) FBI Security Division.



                                          - 25 -
       Additionally, during Phases 1 and 2, Sentinel program personnel
prepared risk registers, which were required by the Sentinel Risk
Management Plan. 34 Although Sentinel personnel are still required by the
Program Management Plan to prepare risk registers, Sentinel management
stated that program personnel had not been preparing them initially during
Agile development because they are not sufficient on their own to manage
risk, and Sentinel project personnel are not preparing documentation unless
it adds value to the program. Sentinel management also stated that
program personnel are engaged in other Agile development activities
intended to help manage risk and those activities may be more effective at
managing risk. In response to a draft of this report, the FBI CTO stated that
he meets regularly with Sentinel staff to review and address risk and,
beginning in February 2011, Sentinel project personnel resumed preparing
risk registers. 35 In our judgment, the FBI should resolve these varying
expectations of which documentation is necessary to adequately manage
Sentinel. Resolution of such issues will best ensure that all parties involved
in development, post-development, and oversight can assess Sentinel’s
adherence to its budget and schedule and most effectively determine
whether Sentinel is being properly managed. 36

       Finally, according to the Independent Verification and Validation
(IV&V) Team, which is made up of contractor staff, the FBI has prevented it
from performing timely reviews of documentation of the FBI’s development
of the Sentinel system. 37 This restricted access to documentation has
inhibited the IV&V Team’s ability to provide to the FBI early reviews and
assessments of the maturity of Sentinel’s design, and the way in which
important elements of the system, such as search functionality and access
controls, will work together to provide users with the capabilities that they
require. The FBI CTO stated that the FBI believes that it has provided the
IV&V Team with access to all relevant information necessary for the team to
complete its objectives. Specifically, he told us that the IV&V Team has

       34
          A risk register is a tool used in project management to identify, analyze, and
manage potential project issues that could negatively affect the project’s budget or
schedule.
       35
        Although risk registers have been available since February 2011, we were neither
made aware of nor received any such documentation until October 2011.
       36
          FBI officials responsible for IT project governance acknowledged that the LCMD
should include Agile development methodologies and said that a new version of the LCMD
would include standards for those methodologies.
       37
         IV&V is a standard Information Technology Investment Management process
whereby an independent entity assesses the system as it is developed in order to evaluate
whether the software will perform as intended.



                                           - 26 -
access to the code for any completed sprints and that the only code it does
not have access to is the code being developed in the current sprint. The
FBI CTO said that expanding the IV&V Team’s access would risk interference
with the progress that developers are making during each 2-week sprint.

       The FBI has spent approximately $5.5 million since 2006 for Sentinel
IV&V Team assessments. From October 2010 through March 2011, the FBI
spent approximately $527,000 on IV&V. 38 Yet, since that time, the FBI has
restricted the IV&V Team’s ability to analyze whether Sentinel will function
as the FBI has intended. An IV&V Team official stated that the FBI has
limited the IV&V Team’s access to project information because it is the FBI’s
position that such access would distract the Agile Team developers from
their daily responsibilities. As a result, we are concerned that the FBI has
not and cannot fully realize the value of its investment in the IV&V Team’s
service, particularly since the FBI’s transition to an Agile development
methodology.

      An IV&V Team official told us in April 2011 that the FBI had broadened
the IV&V Team’s access to some of the information necessary for the team
to assess Sentinel’s progress. Nevertheless, we remain concerned that the
FBI has continued to limit information that would allow for the IV&V to be
completed. We recommend that the FBI grant the Sentinel IV&V Team
access to the critical documentation and information repositories that will
provide the information necessary for the IV&V Team to properly assess
Sentinel’s design, structure, functionality, and development status.

      In addition to IV&V, Sentinel is subject to several requirements that
are imposed by entities internal and external to the FBI. 39 During our
review, a Sentinel Agile Team member stated that development team
personnel had to re-develop a component of Sentinel’s digital signature

       38
         The current Sentinel IV&V contract year began in January 2011 and is valued at
$544,400.
       39
            Internally, the FBI Security Division must execute, and the system must pass, a
Certification and Accreditation assessment. Externally, the system must satisfy National
Archives and Records Administration (NARA) requirements to become the FBI’s System of
Record. Specifically, Sentinel must satisfy NARA Electronic Record Keeping Certification
(ERKC) requirements. NARA ERKC is a process used to ensure that electronic recordkeeping
requirements, including the proper creation, maintenance, use, and disposition of FBI
records, are incorporated into the design and deployment of information and knowledge
management systems such as Sentinel. Access controls are an essential part of records
management, and controlling and safeguarding FBI records, while also making them
accessible for use, is a necessary component of the design. The system must also meet
Federal Information Security Management Act of 2002, National Institute of Standards and
Technology, and Department of Justice requirements.



                                          - 27 -
functionality because it was not compliant with the National Institute of
Standards and Technology’s Federal Information Processing Standards and
had not been tested for compliance when it was initially developed. In our
judgment, failure to integrate such requirements in initial development
efforts and the subsequent need for either additional or redundant
development work is an inefficient use of resources that could cause the
project to either exceed its budget or extend its schedule. If progress
toward meeting these requirements is properly monitored and managed,
then the FBI could mitigate the risk of associated increased costs and
schedule delays. Therefore, we suggest that the FBI consider either hiring
or designating an FBI official who would be charged with monitoring,
coordinating, and ensuring that the project achieves, and remains in,
compliance with Sentinel’s mandates and any other external or internal
compliance requirements that may currently be in existence or that could be
issued at a future date.

Agile Team Staffing

       The Sentinel Program Management Plan states that the project must
develop and utilize a staffing plan to manage staffing and keep track of
personnel. Further, the Sentinel Program Management Plan specifies that
the staffing plan should include details about the structure of the Sentinel
team, such as the specific duties and responsibilities of each team member.
As of September 2011, the FBI had not developed a Sentinel staffing plan
for use in conjunction with its Agile development approach. The FBI CIO
said that the cost of preparing a staffing plan would exceed the benefits
provided by such a plan and that the Sentinel organizational chart provided
sufficient information to manage Sentinel’s staffing. However, because the
FBI has not developed a staffing plan for Sentinel, we are concerned that
Sentinel’s managers are unable to make fully informed and effective staffing
decisions. For example, a former member of the Agile Development Team
stated that he had very few responsibilities and was assigned only a minimal
amount of work during the 4 months he was assigned to the team. In our
judgment, a staffing plan would increase the likelihood that Sentinel’s
managers could avoid the unnecessary costs associated with inefficient
staffing decisions.

Conclusion

      The value of finally moving the FBI from a paper-based records system
to a paperless system that allows the FBI’s agents and analysts to
electronically share information in a reduced amount of time should not be
overlooked. While the FBI appeared to be within its $451 million budget, we
note that schedule slippage and elimination of unneeded Sentinel staff


                                   - 28 -
positions have been contributing factors to this apparent adherence, and the
FBI’s development budget no longer includes 2 years of operations and
maintenance activities after development concludes. However, if the FBI
can finish the development of Sentinel without using all of its management
reserve, then the remaining funds could be applied to Sentinel’s operations
and maintenance.

       The FBI’s transition to an Agile development approach has reduced the
risk that Sentinel will either exceed its budget or fail to deliver the expected
functionality by reducing the rate at which the FBI is spending money on
Sentinel and by instituting a more direct approach to the FBI’s monitoring of
the development of Sentinel. When we provided our initial draft of this
report to the FBI in October 2011, we expressed concern that the rate at
which the FBI was developing Sentinel’s functionality indicated the project
was at risk of falling behind the FBI’s then planned January 2012
deployment date. In December 2011, after we completed our fieldwork for
this report and after we provided the FBI with a revised draft report, FBI
officials told us that the FBI extended the Sentinel deployment date to
May 2012. While we have not had the opportunity to fully review the FBI’s
plan to meet these revised completion dates, we continue to believe it will
be challenging for the FBI to meet this latest goal for deploying Sentinel to
all FBI users in this timeframe.

       It is too early to judge whether the FBI’s Agile development of Sentinel
will meet its newly revised budget and completion goals and the needs of
FBI agents and analysts. While the Sentinel Advisory Group responded
positively to the version of Sentinel it tested, results from wider testing were
not as positive. Also, none of the Agile-developed Sentinel has been
deployed to all users to give them the ability to enter actual case data and
assist FBI agents and analysts in more efficiently performing their jobs.

       Despite the FBI’s self-reported progress in developing Sentinel, we are
concerned that the FBI is not documenting that the functionality developed
during each sprint has met the FBI’s acceptance criteria. Our concerns
about the lack of transparency of Sentinel’s progress are magnified by the
apparent lack of comprehensive and timely system testing. Our concerns
about the lack of transparency also extend to Sentinel’s cooperation with
internal and external oversight entities, to which Sentinel did not provide the
necessary system documentation for them to perform their critical oversight
and reporting functions. We believe that this issue could be resolved, at
least in part, with a revision to the FBI’s Life Cycle Management Directive to
include standards for Agile development methodologies.




                                     - 29 -
Recommendations

We recommend that the FBI:

     1. Ensure that the software presented at the biweekly end-of-sprint
        demonstrations has been tested in accordance with Sentinel’s
        Program Management Plan.

     2. Revise the Life Cycle Management Directive to include requirements
        for Agile development, including the Scrum methodology.

     3. Confer with the Sentinel IV&V Team to resolve access issues so that
        the IV&V team can adequately fulfill its objectives.

     4. Conduct additional Sentinel Functional Exercises to help ensure that
        Sentinel adequately performs when operated on the FBI’s network.




                                  - 30 -
                                                                             APPENDIX I


            SENTINEL AGILE DEVELOPMENT APPROACH

       In October 2010 the FBI identified a total of 670 stories for the
Sentinel Product Backlog, or the compilation of all of the project’s stories.
The FBI has mapped the Product Backlog to each of the requirements in
Sentinel’s Systems Requirements Specification (SRS), which serves as an
important control to ensure that the backlog, and the stories it contains,
cover all of Sentinel’s requirements. The FBI also assigned weighted
amounts, or “story points,” to each story in the Product Backlog based on
the difficulty of the work associated with each story. The FBI assigned a
total of 3,093 story points to its 670 stories in the Sentinel Product Backlog.
The following illustration outlines the Scrum process that the FBI is using to
develop Sentinel.

                                  The Scrum Process




Source: OIG adaptation of FBI data and graphic

      The Sentinel development team identifies the functionality that will be
developed over the course of each of the planned sprints during planning
meetings that occur on the first day of each sprint. 40 Each sprint ends after
2 weeks, regardless of whether the development team has completed the
planned work. 41 On the last day of each sprint, the Scrum approach calls for
any functionality identified as being completed to: (1) have been fully
tested during the corresponding sprint, (2) be ready for deployment to all
users, and (3) be demonstrable to project stakeholders, including
representatives from various FBI divisions, during the demonstration held at
the end of each sprint. 42 Following this process, the development team
demonstrates the functionality that has been successfully developed and
tested during each sprint.
       40
         The sprints began in October 2010 and were planned to end in September 2011.
However, in December 2011, the FBI CIO stated that the FBI plans to add additional
development sprints to the project so that development will conclude in February 2012.
       41
         Any stories assigned to a sprint that are not completed are returned to the
Product Backlog for additional work after assignment to a subsequent sprint.
       42
          Each sprint may not add enough “field-ready” functionality to warrant releasing it
to all users. The completion of several sprints may be required for a release of the new
features to all users.



                                             31
                                                                                        APPENDIX II



    THE FEDERAL BUREAU OF INVESTIGATION’S

           RESPONSE TO THE REPORT


                                                      U.S.   D~p.rtlDent   of Justice


                                                      Federal Bureau of Investigation


                                                      Washington, D. C. 20535-0001

                                                      December 19, 20ll



Cynthia A.Schnedar
Acting Inspector General
Office of the Inspector General
U.S. ~panr.nentofJustice
Suite 4706
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530


Dear Ms. Schnedar:

               The Federal Bureau of Investigation (FBn appreciates the opportunity to review
and respond to your draft report entitled, "Status of the Federal Bureau of Investigation's
Implementation of the Sentinel Project" (hereinafter "Report").

                We are pleased with your conclusion that, by adopting an Agile development
approach, the FBI bas "reduced its rate of spending on Sentinel" and instituted a more "direct
approach to monitoring the development of the system's functionality .n Indeed, as the FBI's
figures included in this Report demonstrate, while we have expended only 52% oftbe Agile
development budget of$32.6 million. as of December 6 we had completed 88% of the required
system functionality. The percentage of functionality completed has further increased during the
time that has passed since your report was last updated.

                lbis accomplishment is significant In mid-20l 0, the f"Bl charted a new course
for completing the remaining two phases oftbe Sentinel program using an Agile development
approach, which represented a substantial departure from its prior development activities. As a
result, you concluded in this Report that the FBI is "expending significantly fewer dollars per
month than it had in Phases 1 and 2 for the project." In sum, we agree with your conclusion that
the FBI's transition to an Agile development approach has "reduced the risk that Sentinel will
either exceed its budget or fail to deliver the expected functionality." As you note, "at this point
in time, the FBI does not foresee exceeding the $45 I million budget to complete the Sentinel
project."

               With that in mind, we are mindful of the short delay we have recently encountered
under our new" Agile" approach. The Sentinel development schedule has recently been extended
by two months (from December 2011 to February 2012), and the FBI-wide deployment is now
scheduled for May 2012, as described in this Report. This modest extension is due primarily to
the need to implement a standard five-year "refresh" of computer hardware, so the Sentinel
software will provide the required functionality as intended. Indet:d, you have detennined that,
given the pace at which the program has proceeded under the Agile approach over the time
period you reviewed, your estimate for completion is essentially the same -- June 2012.

                We have one concern with the current draft of the Report. We request that you
note that the hardware we are acquiring for the refresh, which is being purchased using fiscal




                                               32

year 2012 operations and maintenance funds, is separate fTOm the development activities being
carried out by the Agile team under the development budget. The refresh is part of the normal
and expected operations and mainte nance activities o f the FBI, and s uch a refresh is a common
maintenance activity where hardware has reached its expected replacement threshold. We do not
agree that the FBI is using operations and maintenance funds for the development of Senlinel, as
suggested throughout the Re port; we ask that you make this revision.

                 In conclusion, based upon a review o f the Rcport, the FBI concurs with the four
recommendations directed to the FBI and has already taken steps to imple ment them. We look
forward to your continued overs ight oflhi s project and commend the professionalism of your
auditi ng staff on this report. Piease feci free to contact me at 202-324-6165 should you have any
questions.



                                                     Sincerely yours,


                                                     ~/~
                                                     C had L. Fulgham
                                                     Executive Assistant Director and
                                                     Chief Information O ffic er
                                                     Information and Technology Braneb




                                                2




                                          33

                     OIG Status of the Federal Bureau of Investigation’s
                          Implementation of the Sentinel Project

Recommendation #1 – “Ensure that the software presented at the biweekly end-of-sprint
demonstrations has been tested in accordance with Sentinel’s Program Management Plan.”

FBI Response to Recommendation #1: Concur. The Sentinel Program Management Plan is
currently being revised to document the improved testing that has been conducted in an effort to
ensure the thoroughness of the Sentinel software testing.


Recommendation #2 – “Revise the Life Cycle Management Directive to include requirements
for Agile development, including the Scrum methodology.”

FBI Response to Recommendation #2: Concur. Currently, the Information Technology (IT)
Engineering Division and the Sentinel Program are working closely with the IT Management
Division to update the Life Cycle Management Directive with applicable requirements for Agile
and Scrum development methodologies.


Recommendation #3 – “Confer with the Sentinel IV&V Team to resolve access issues so that
the IV&V team can adequately fulfill its objectives.”

FBI Response to Recommendation #3: Concur. In an effort to resolve access issues with
IV&V Team, the FBI’s Chief Technology Officer will confer with the IV&V Team so they can
adequately fulfill their objectives.


Recommendation #4 – “Conduct additional Sentinel Functional Exercises to help ensure that
Sentinel adequately performs when operated on the FBI’s network.”

FBI Response to Recommendation #4: Concur. To ensure that Sentinel adequately performs
when operated on the FBI’s network, a second Sentinel Functional Exercise has been tentatively
planned for April 2012.




                                               34
                                                             APPENDIX III


              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this report to the FBI for its review and
comment. The FBI’s response is incorporated as Appendix II of this report.
The following provides the OIG analysis of the FBI’s response and summary
of the actions necessary to close the report.

Analysis of FBI Response

      In response to our report, the FBI concurred with our
recommendations. In addition, the FBI requested that we note in our report
that the hardware it is purchasing with fiscal year (FY) 2012 operations and
maintenance funds is separate from the development activities being carried
out by the Agile team under the development budget. The FBI also stated
that the purchase of the hardware is part of the normal and expected
operations and maintenance activities of the FBI and that replacement of
hardware is a common maintenance activity when hardware has reached its
expected replacement threshold.

       As we discuss in our report, the FBI found that it will not be able to
deploy Sentinel using Sentinel’s current hardware. According to
documentation provided by the FBI, the FBI’s need for the additional
hardware was not part of a scheduled update of Sentinel’s infrastructure.
Instead, as a result of performance issues experienced during the Sentinel
Functional Exercise, the FBI determined that it needed to expand the system
infrastructure before Sentinel could be deployed to all users.

      Specifically, on October 6, 2011, the FBI conducted a testing exercise,
called the Sentinel Functional Exercise, during which 743 participants from
across the FBI used Sentinel as the case management system. During the
exercise, the system experienced two outages. The FBI attributed these
performance problems to either the system architecture or the computer
hardware. According to the FBI, subsequent operational testing confirmed
the inadequacy of the existing hardware and the requirement to significantly
expand the infrastructure before the system could be deployed to all users.
In November 2011, the FBI requested that Lockheed Martin provide a cost
proposal for this additional hardware. The hardware procurement is under
negotiation, and a senior FBI contracting official said that the FBI intended
to pay for the new hardware with FY 2012 Sentinel operations and
maintenance funds.


                                     35
      We state in our report that we are concerned about the FBI’s ability to
remain within its overall budget of $451 million, which includes Sentinel
expenses both for development and for operations and maintenance,
because of the uncertainties associated with the hardware procurement and
the cost associated with the additional delay to Sentinel’s development and
deployment. In 2006, the FBI originally planned to use Sentinel funds to
support Sentinel operations and maintenance for 2 years after full
implementation of the system. According to the FBI in July 2011, Sentinel’s
$451 million budget was sufficient to fund the completion of Sentinel’s
development and its operations and maintenance through May 2012.
However, according to FBI officials’ statements that Sentinel will not be
deployed until May 2012, it appears that the Sentinel budget will not fund
operations and maintenance after Sentinel’s planned deployment. 43

      Finally, as our report states and as the FBI’s response acknowledges,
the full deployment of Sentinel is now planned for May 2012. While the
extensions to the FBI’s Agile development schedule are essential to effect
the full development of the system, the FBI’s original plan using the Agile
development methodology was to deploy a fully functional Sentinel by
October 2011. While in its response the FBI indicates that the May 2012
estimated deployment date is a “modest extension,” it is in fact a 7 month
extension, which we believe is significant even if it is necessary to develop
the full system and in light of the FBI’s previous development delays.

Analysis of Actions Necessary to Close the Report

1. Resolved. The FBI concurred with our recommendation. This
   recommendation can be closed when the FBI demonstrates that it is
   ensuring the software presented at the biweekly end-of-sprint
   demonstrations is tested in accordance with Sentinel’s Program
   Management Plan.




       43
          According to the FBI, it contracted with Lockheed Martin in 2007 for 5 years of
operations and maintenance support, which began in May 2007 and will end in May 2012.
Since Lockheed Martin is still fulfilling its contractual obligations, the FBI is receiving the full
5 years of operations and maintenance it contracted for at the outset of the Sentinel
program. However, as we stated in our previous report, because Sentinel is behind
schedule, the $451 million will not fund the operations and maintenance of Sentinel for
2 years after its completion, as originally intended. (U.S. Department of Justice Office of
the Inspector General, Status of the Federal Bureau of Investigation’s Implementation of
the Sentinel Project, Report 11-01 (October 2010)).


                                                36
2. Resolved. The FBI concurred with our recommendation. This
   recommendation can be closed when the FBI provides documentation
   evidencing that it revised the Life Cycle Management Directive to include
   requirements for Agile development, including the Scrum methodology.

3. Resolved. The FBI concurred with our recommendation. This
   recommendation can be closed when the FBI demonstrates that it
   conferred with the Sentinel IV&V Team and resolved access issues so that
   the IV&V team can adequately fulfill its objectives.

4. Resolved. The FBI concurred with our recommendation. This
   recommendation can be closed when the FBI conducts additional Sentinel
   Functional Exercises to ensure that the Sentinel adequately performs
   when operated on the FBI’s network.




                                     37
